            OFFICE OF
     THE INSPECTOR GENERAL

 SOCIAL SECURITY ADMINISTRATION


        SINGLE AUDIT OF THE
   COMMONWEALTH OF PUERTO RICO
     DEPARTMENT OF THE FAMILY
     FOR THE FISCAL YEAR ENDED
            JUNE 30, 2001

      March 2003   A-77-03-00011




  MANAGEMENT
ADVISORY REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                    SOCIAL SECURITY
MEMORANDUM
Date:   March 20, 2003                                                      Refer To:

To:     Candace Skurnik
        Acting Director
        Management Analysis and Audit Program Support Staff

From: Assistant Inspector General
         for Audit

Subject: Management Advisory Report: Single Audit of the Commonwealth of Puerto Rico,
        Department of the Family, for the Fiscal Year Ended June 30, 2001 (A-77-03-00011)


        This report presents the Social Security Administration’s (SSA) portion of the single
        audit of the Commonwealth of Puerto Rico, Department of the Family (DOF), for the
        Fiscal Year ended June 30, 2001. Our objective was to report internal control
        weaknesses, noncompliance issues, and unallowable costs identified in the single audit
        to SSA for resolution action.

        Ernst & Young LLP performed the audit. Results of the desk review conducted by the
        Department of Health and Human Services (HHS) have not been received. We will
        notify you when the results are received if HHS determines the audit did not meet
        Federal requirements. In reporting the results of the single audit, we relied entirely on
        the internal control and compliance work performed by Ernst & Young LLP and the
        reviews performed by HHS.

        For single audit purposes, the Office of Management and Budget assigns Federal
        programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability
        Insurance (DI) and Supplemental Security Income (SSI) programs are identified by
        CFDA number 96. SSA is responsible for resolving single audit findings reported under
        this CFDA number.

        The Puerto Rico Disability Determination Services (DDS) performs disability
        determinations under SSA’s DI and SSI programs in accordance with Federal
        regulations. The DDS is reimbursed for 100 percent of allowable costs. DOF is the
        Puerto Rico DDS’ parent agency.
Page 2 – Candace Skurnik


The single audit reported that:

1. The Time Report of Personnel Services (SSA-4514) was not submitted timely. The
   corrective action plan indicated that necessary adjustments were being made to
   comply with the due dates for Federal reports (Attachment A, pages 1 and 2).1

2. Estimated personnel costs were used on the State Agency Report of Obligations
   (SSA-4513), resulting in a questioned cost of $100,144. The corrective action plan
   indicated that the accounting records were adjusted after payroll registers with actual
   expense information were received from the Department of the Treasury (Treasury)
   and the adjustments were included in a subsequent SSA-4513 (Attachment A,
   pages1 and 2).

3. Evidence could not be located to support the time elapsed between the receipt and
   disbursement of Federal funds for the DDS program. The corrective action plan
   indicated that Treasury initiated a project to provide agencies with payment
   information on the transfer of Federal funds (Attachment A, pages 3 and 4).2

4. DDS expenditures of $548 were not supported by documentation. The corrective
   action plan indicated a record retention system ensuring all records and documents
   are retained for the required period of time has been implemented (Attachment A,
   pages 5 and 6).

5. DOF did not maintain accurate records of acquisitions, physical location, and
   dispositions of property acquired with Federal funds. The corrective action plan
   indicated that personnel have been appointed and will be responsible for all property
   and equipment for the DDS program (Attachment A, pages 7 and 8).3

6. Complete personnel information was not maintained in the employees files. The
   corrective action plan indicated that documents will be retained in the future
   (Attachment A, pages 9 and 10).4



1
 The Office of the Inspector General (OIG) Management Advisory Report: Single Audit of the
Commonwealth of Puerto Rico, Department of the Family, for the Fiscal Year Ended June 30, 2000
(A-77-03-00010) issued March 12, 2003, recommended corrective action that would resolve this issue.
Therefore, we are not making a recommendation to the Agency on this single audit finding.
2
  The OIG Audit Report Administrative Costs Claimed by the Commonwealth of Puerto Rico Disability
Determination Program during the period October 1, 1997 through September 30, 2000 (A-06-02-22072)
issued February 23, 2003, recommended corrective action that would resolve this issue. Therefore, we
are not making a recommendation to the Agency on this single audit finding.
3
    See footnote 1.
4
    Ibid.
Page 3 – Candace Skurnik

We recommend SSA:

1. Ensure the $100,144 in estimated personnel costs was properly adjusted on a
   subsequent SSA-4513, and if not, recover the unallowable costs.

2. Determine whether the $548 in undocumented expenditures was allowable and
   recover any unallowable costs.

The single audit also disclosed the following findings that may impact DDS operations
although they were not specifically identified to SSA. Some of these findings were
reported for several DOF programs indicating pervasive problems within DOF. If the
finding was reported in more than one DOF program, we identify the number of times
the finding was reported in parenthesis at the end of each finding. I am bringing these
matters to your attention as they represent potentially serious service delivery and
financial control problems for the Agency (see Attachment B).

•   Financial statements were not prepared in conformity with Generally Accepted
    Accounting Principles because of a lack of policies, procedures, and financial
    reporting practices. Therefore, management did not have accurate and complete
    financial information on a timely basis to carry out other duties (14).

•   DOF did not have an effective filing system.

•   Federal reports were not submitted accurately and timely (6).

•   Property and equipment management procedures were not adequate (8).

•   Supporting documentation and accounting records were not retained for
    expenditures charged to Federal funds (21).

•   Federal funds were disbursed prior to receiving a signed contract.

•   Financial Status Reports did not agree with the General Ledger (6).

•   Evidence to support the drawdown of Federal funds could not be located (3).

•   The DOF does not have an approved Cost Allocation Plan.
Page 4 – Candace Skurnik

Please send copies of the final Audit Clearance Document to Mark Bailey in
Kansas City and Paul Wood in Baltimore. If you have questions contact Mark Bailey at
(816) 936-5591.




                                       S
                                       Steven L. Schaeffer

Attachments
                                                                               Attachment A
                                                                                Page 1 of 10
                                Commonwealth of Puerto Rico
                                  Department of the Family

                   Schedule of Findings and Questioned Costs (continued)


Finding Num. 01-73

State Agency                  Catalog Number      Program Name

U.S. Social Security
Administration                CFDA #96.001        Disability Determination Services

Topic Sentence
The Department did not submit the Financial Status Report and Cash Transactions Report
when due.

Category
Internal Control/Compliance

Compliance Requirement
Reporting

Criteria
The Department must submit the SSA-4513 and SSA-4514 no later than 30 days after the end
of each specified reporting period for quarterly and semi-annual reports, and 90 calendar days
for annual and final reports.

Condition Found
In order to test compliance with the reporting deadline of the Promoting Safe and Stable
Families, we selected the four quarterly reports and noted the following:

   1. The Time Report of Personnel Services (SSA-4514) for the period ended 12-31-00 was
      submitted 5 days later after the ending period.
   2. The Time Report of Personnel Services (SSA-4514) for the period ended 3-31-01 was
      submitted 7 days late.
   3. In each quarter report (SSA-4513) DDS used estimates of personnel costs.

Known Questioned, Costs
As of 9-30-00 $ (482)- Personnel Expenses not requested
As of 6-30-01 100.626 - Personnel Expenses requested
Net total     $100,144

Underlying Cause
The accountant in-charge prepared its respectively expenses reports and were submitted later
for the months mentioned above.

Effect
Inaccurate reporting prevents the federal awarding agency from monitoring the program's
financial activities, assessing the achievements of the program and evaluating the grant award
for the following year.
                                                                                Attachment A
                                                                                 Page 2 of 10
                               Commonwealth of Puerto Rico
                                 Department of the Family

                  Schedule of Findings and Questioned Costs (continued)


Finding Number: 01-73 (continued)

Recommendations
The Department should develop a tracking system which reminds staff due dates. Adequate
evidence of the submittal of all federal reports should be kept by the Department.

Management's Response
The Department acknowledged our findings and agreed with our recommendation. In relation to
Item 1, the Department is making the necessary adjustments to comply with the due dates. The
Human Resources Division of the Department is providing part of the information that is
required for the completion of the SSA-4514 and this process has proved to be very effective.
Also the program is in the process of automating the attendance of employees, which will allow
the program to obtain the information sooner and report on a timely manner.

Regarding the indirect cost rate, an adjustment was made subsequently in the quarterly report
of December 2000, to correct the reported indirect costs.

In relation to Item 3, payroll is processed by the Puerto Rico Treasury Department through the
RHUM system. Payroll registers with actual expense information are received late from
Department of Treasury, which obligates the program to record payroll expenses based on the
last payroll. Once the payroll information is received, the accounting records are adjusted and
this is reflected in the next SSA-4513.
                                                                                  Attachment A
                                                                                   Page 3 of 10
                                Commonwealth of Puerto Rico
                                  Department of the Family

                   Schedule of Findings and Questioned Costs (continued)


Finding Number: 01-74

State Agency                  Catalog Number           Program Name
U.S. Social Security
Administration                CFDA #96.001             Disability Determination Services

Topic Sentence
The Department could not locate evidence to support the time elapsed between the transfer of
federal funds and the disbursements of the funds.

Category
Compliance/Internal Control

Compliance Requirement
Cash Management

Criteria
31 CFR 205.6 established that the Zero balance accounting is a method of transferring Federal
funds to the State based on the actual amount of funds that are paid out by the State. The
funding technique must be auditable for internal control purposes. Auditable means the sources
of data and information for a calculation are readily available, fully documented, and verifiable,
such that the calculation can be replicated and proven to comply with all pertinent standards.

Condition Found
In testing compliance with cash management we examined the vouchers for payments and
evaluated the procedures implemented to minimize the time elapsed between the transfer of
Federal Funds and the payment of funds for program purposes. Upon our inspection, we were
unable to perform the Cash Management test because the Governmental Development Bank
(GDB) did not provide ADFAN a list detailing cancelled checks for which federal funds were
expended. Checks cleared by GDB are not listed in detail but included in a lump sum amount.
This precludes ADFAN from matching cleared checks with the corresponding payment and tying
this to the request for funds. This problem is between GDB and the PRIFAS system.

Known Questioned Costs
$30,305

Underlying Cause
The Governmental Development Bank was not sending Secretary's office a detail of the
cancelled checks.

Effect
The Department cannot reconcile the disbursements with their corresponding checks for
accounting purposes.
                                                                                   Attachment A
                                                                                    Page 4 of 10
                                Commonwealth of Puerto Rico
                                  Department of the Family

                   Schedule of Findings and Questioned Costs (continued)


Finding Number: 01-74 (continued)

Recommendation
The Department should ascertain that adequate source documents exists to support cash
management of federal funds. The Department should also establish a record retention system
to ascertain that accounting records and documents are retained for the time period required by
applicable regulations and the provisions of laws, contracts or grant agreements of the program.

Management's Response
This situation arises because of the lack of detailed information provided by GDB and the
PRIFAS system, which is controlled by the Puerto Rico Treasury Department. The Treasury
Department started a project in 2002 to solve this problem, which affects no only ADFAN, but all
the governmental agencies for which the Treasury Department acts as custodian of their funds.
Part of this project is identifying all payment information and providing it to the, agencies. Once
this project is completed, this situation should be corrected.
                                                                                   Attachment A
                                                                                    Page 5 of 10
                                Commonwealth of Puerto Rico
                                  Department of the Family

                   Schedule of Findings and Questioned Costs (continued)


Finding Number: 01-75

State Agency                  Catalog Number            Program Name
U.S. Social Security
Administration                CFDA #96.001              Disability Determination Services

Topic Sentence
The Department could not locate evidence to support disbursements.

Category
Compliance/Internal Control

Compliance Requirement
Allowable Costs/Costs Principles

Criteria
As per OMB Circular A-102 Subpart C, Section 20 (2), grantees and sub-grantees must
maintain records, which adequately identify the source and application of funds provided for
financially assisted activities. These records must contain information pertaining to the grant or
sub-grant awards and authorizations, obligations, un-obligated balances, assets, liabilities,
outlays or expenditures, and income. Accounting records must be supported by such source
documentation as cancelled invoices, pre-audited invoices, paid bills, payrolls, time and
attendance records, etc. Except as otherwise provided, records must be retained for three
years.

Condition Found
In testing compliance with allowable costs and cost principles we examined 18 vouchers for
payments amounting to $30,304.54 and evaluated the procedures implemented to comply with
the regulations of the Federal Programs and Internal Control for the fiscal year ended June 30,
2001. We noted the following exceptions:

 Payment Voucher          Amount              Payment Voucher Not         Evidence, of Payment
     Number                                   - Processed in System
      39796               $291.30                       X                          X
     400027                256.60                       X                          X
                          $547.90

Known Questioned Costs
Questioned costs are included in Finding Number 01-74.

Underlying Cause
The Department process for accounting records of expenses is not effective.

Effect
The Department may have expended funds for unallowable activities, which could result in
disallowed costs by federal awarding agency.
                                                                               Attachment A
                                                                                Page 6 of 10
                               Commonwealth of Puerto Rico
                                 Department of the Family

                  Schedule of Findings and Questioned Costs (continued)


Finding Number: 01-75 (continued)

Recommendation
The Department should establish a record retention system to ascertain that accounting records
and documents are retained for the time period required by applicable regulations and the
provisions of laws, contracts or grant agreements of the program.

Management's Response
The Department acknowledged our finding and agreed with our recommendation.
                                                                                   Attachment A
                                                                                    Page 7 of 10
                                Commonwealth of Puerto Rico
                                  Department of the Family

                   Schedule of Findings and Questioned Costs (continued)


Finding Number: 01-76

State Agency                  Catalog Number            Program Name
U.S. Social Security
Administration                CFDA #96.001              Disability Determination Services

Topic Sentence
The Department lacks accountability over property, plant and equipment acquired with federal
funds.

Category
Internal Control/Compliance

Compliance Requirement
Equipment and Real Property Management

Criteria
As per OMB Circular A-102, every two years, at a minimum, a physical inventory shall be
conducted and the results shall be reconciled with property records to verify the existence,
current utilization, and continued need for the equipment. Any discrepancies between quantities
determined by the physical inspection with those shown in the accounting records shall be
investigated to determine the causes of the differences. Property records shall be accurate.
Property records shall include the following for each item:

1. A description of the equipment including manufacturer's serial numbers.
2. Identification number, such as the manufacturer's serial numbers.
3. Identification of the grant under which the recipient acquired the equipment.
4. The information needed to calculate the federal share of the cost of the equipment.
5. Acquisition date and unit acquisition cost.
6. Location, use and condition of the equipment and the date the information was obtained.
7. All pertinent information on the ultimate transfer, replacement, or disposal of the equipment.

Condition Found
We noted that the Fiscal Office of DDS program has not completed the inventory report for the
fiscal year 2000-2001.

Known Questioned Costs
None

Underlying Cause
The Department does not maintain accurate records of acquisitions, physical location and
dispositions of property acquired with federal funds.
                                                                               Attachment A
                                                                                Page 8 of 10
                               Commonwealth of Puerto Rico
                                 Department of the Family

                  Schedule of Findings and Questioned Costs (continued)


Finding Number: 01-76 (continued)

Effect
The Department is exposed to the risk of possible unauthorized use and disposition of
equipment due to the lack of internal controls and the lack of adequate property and equipment
records. The possible misappropriation of the equipment acquired with federal funds could
result in disallowed costs.

Recommendations
The Department's management should conduct periodic inventories and follow up on inventory
discrepancies. In addition, the Department's management should review all dispositions of
property to ascertain appropriate valuation and reimbursement to federal awarding agencies.

Management's Response
In May 2002 an employee was appointed as the responsible for all property and equipment of
the program.
                                                                                       Attachment A
                                                                                        Page 9 of 10
                                Commonwealth of Puerto Rico
                                  Department of the Family

                   Schedule of Findings and Questioned Costs (continued)


Finding Number: 01-77

State Agency                  Catalog Number            Program Name
U.S. Social Security
Administration                CFDA #96.001              Disability Determination Services

Topic Sentence
The Department could not locate evidence to support disbursements related to payroll charged
to the program.

Category
Compliance/Internal Control

Compliance Requirement
Allowable Costs/Costs Principles

Criteria
As per OMB Circular A-102 Subpart C, Section 20 (2), grantees and sub-grantees must
maintain records, which adequately identify the source and application of funds provided for
financially assisted activities. These records must contain information pertaining to the grant or
sub-grant awards and authorizations, obligations, unobligated balances, assets, liabilities,
outlays or expenditures, and income. Accounting records must be supported by such source
documentation as cancelled invoices, pre-audited invoices, paid bills, payrolls, time and
attendance records, etc. Except as otherwise provided, records must be retained for three
years.

Condition Found
In testing the compliance of the allowable costs and cost principles, we examined 18 employee
records and its related payroll information to evaluate the procedures implemented to comply
with the regulations of the Federal Programs and Internal Control for the fiscal year ended June
30, 2001. We noted the following exceptions:

       • Three cases did not have a copy of the Social Security card in their files.
       • Two cases did not have evidence of education in their files.

Known Questioned Costs
None

Underlying Cause
The Department's process for employee record retention is not effective.

Effect
The Department may have expended funds for unallowable activities, which could result in
disallowed costs by the federal awarding agency.
                                                                              Attachment A
                                                                              Page 10 of 10
                               Commonwealth of Puerto Rico
                                 Department of the Family

                  Schedule of Findings and Questioned Costs (continued)


Finding Number: 01-77 (continued)

Recommendation
The Department should improve the process of record retention of documents required for each
employee that works for this program in order to ascertain that the documents are retained for
the time period required by applicable regulations and the provisions of laws.

Management's Response
The Department acknowledged our finding and agreed with our recommendation.
                                                                                     Attachment B
                                                                                      Page 1 of 20
                                 Commonwealth of Puerto Rico
                                   Department of the Family

                    Schedule of Findings and Questioned Costs (continued)


Finding Number: 01-01

Accounting and Finance Department

Topic Sentence
The Department has significant deficiencies in its internal control structure, accounting and
financial management systems, budgetary controls and financial reporting practices.

Category
Internal Control

Compliance Requirement
All applicable compliance requirements as stated in OMB Circular A-133.

Criteria
Auditees must prepare their financial statements in accordance with generally accepted
accounting principles (GAAP). OMB Circular A-133 section 310, states that the auditee shall
prepare financial statements that reflect its financial position, results of operations or changes in
net assets, and, where appropriate, cash flows for the fiscal year audited.

GASB Codification section 1200, "Generally Accepted Accounting Principles and Legal
Compliance," states that a governmental accounting system must make it possible, both: (a) to
present fairly and with full disclosure the financial position and results of operations of the funds
and account groups of the governmental unit in conformity with GAAP, and (b) to determine and
demonstrate compliance with finance-related legal and contractual provisions.

GASB Codification section 1300, "Fund Accounting", states that governmental accounting
systems should be organized and operated on a fund basis. A fund is defined as a fiscal and
accounting entity with a self-balancing set of accounts to record cash and other financial
resources, together with all related liabilities and residual equities or balances, and changes
therein which are segregated for the purpose of carrying on specific activities or attaining certain
objectives in accordance with special regulations, restrictions, or limitations.

GASB Codification Section 1900, states that governmental entities should prepare interim and
year-end financial statements and reports of financial position, operating results, and other
pertinent information to facilitate management control of financial operations, legislative
oversight, and for external reporting purposes.

OMB Circular A-102 Subpart C, Section 20, states that a state must expend and account for
grant funds in accordance with state laws and procedures for expending and accounting for its
own funds. Fiscal control and accounting procedures of the state, as well as its subgrantees
and costtype contractors, must be sufficient to permit preparation of reports required by this part
and the statutes authorizing the grant, and permit the tracing of funds to a level of expenditures
adequate to establish that such funds have not been used in violation of the restriction and
prohibitions of applicable statutes. The financial management systems must meet the following
standards:
                                                                                    Attachment B
                                                                                     Page 2 of 20
                                 Commonwealth of Puerto Rico
                                   Department of the Family

                   Schedule of Findings and Questioned Costs (continued)


Finding Number: O1-Ol (continued)

Criteria (continued)
• Financial reporting: accurate, current, and complete disclosure of the financial results of
    financially assisted activities must be made in accordance with the financial reporting
    requirements of the grant or subgrant.

•   Accounting records: grantees and subgrantees must maintain records that adequately
    identify the source and application of funds provided for financially assisted activities. These
    records must contain information pertaining to grant or subgrant awards and authorizations,
    obligations, unobligated balances, assets, liabilities, outlays or expenditures, and income.

•   Internal control: effective control and accountability must be maintained for all grant and
    subgrant cash, real and personal property, and other assets. Grantees and subgrantees
    must adequately safeguard all such property and must assure that it is used solely for
    authorized purposes.

•   Budget control: actual expenditures or outlays must be compared with budgeted amounts
    for each grant or subgrant. Financial information must be related to performance or
    productivity data, including the development of unit cost information whenever appropriate
    or specifically required in the grant or subgrant agreement. If unit cost data are required,
    estimates based on available documentation will be accepted whenever possible.

•   Allowable cost: applicable OMB cost principles, agency program regulations, and the terms
    of grant and subgrant agreements will be followed in determining the reasonableness,
    allowability, and allocability of costs.

•   Source documentation:      accounting records must be supported by such source
    documentation as canceled checks, paid bills, payrolls, time and attendance records,
    contract and subgrant award documents, etc.

•   Cash management: procedures for minimizing the time elapsing between the transfer of
    funds from the U.S. Treasury and disbursement by grantees and subgrantees must be
    followed whenever advance payment procedures are used. Grantees must establish
    reasonable procedures to ensure the receipt of reports on subgrantees' cash balances and
    cash disbursements in sufficient time to enable them to prepare complete and accurate cash
    transactions report to the awarding agency. When advances are made by letter-of-credit or
    electronic transfer of funds methods, the grantee must make drawdowns as close as
    possible to the time of making disbursements.

In addition to the above requirements, the Department's internal control system must provide for
reconciliation of amounts reflected in control accounts with subsidiary records and the
reconciliation of transactions and balances between different departments and agencies.
                                                                                  Attachment B
                                                                                   Page 3 of 20
                                Commonwealth of Puerto Rico
                                  Department of the Family

                   Schedule of Findings and Questioned Costs (continued)


Finding Number: 01-01 (continued)

Condition Found
The Department has an inadequate internal control structure and has not established
accounting policies, procedures, and financial reporting practices necessary to conform to
generally accepted accounting principles, (GAAP), as applicable to governmental entities.
Significant deficiencies noted are as follows:

•   There is a lack of an effective internal control structure to reasonably assure compliance
    with the requirements of federal laws, regulations and program compliance requirements.
    The Department has deficiencies in internal control such as the absence of sufficient level of
    control consciousness throughout all of the Department's separate administrative
    operations, the absence of an appropriate segregation of duties, the absence of appropriate
    management review and approval of transactions, accounting entries and financial and
    other reporting.

•   There are inadequate procedures for appropriately assessing and applying accounting
    principles, inadequate provisions for the safeguarding of assets, the absence of an
    accounting procedures manual and the absence of many controls considered appropriate
    for an entity of this size and type.

•   There is a lack of a self-balancing set of accounts for each fund to record cash and other
    financial resources, together with the related liabilities, residual equities balances or fund
    balances, and any related changes therein. Accounts should be segregated in funds or
    subfunds for purposes of demonstrating the accountability of the Department while carrying
    on a specific activity or attaining certain objectives in accordance with special regulations,
    restrictions or limitations.

In addition to the general deficiencies mentioned in the preceding paragraph we found the
following:

•   The Department did not furnish a financial statement line item budget for the Special
    Revenue Fund on a fiscal year basis coinciding with the Department's annual reporting
    period.

•   The Department does not reconcile federal grant revenues recorded in the Department's
    records, with the amounts disbursed by the Puerto Rico Treasury Department. The
    Treasury Department is the agency that makes all disbursements made by the Department
    of the Family.

Known Questioned Costs
None
                                                                                  Attachment B
                                                                                   Page 4 of 20
                                Commonwealth of Puerto Rico
                                  Department of the Family

                   Schedule of Findings and Questioned Costs (continued)


Finding Number: 01-01 (continued)

Underlying Cause
The Department's management has not adopted a policy of following accounting principles
generally accepted in the United States that are applicable to governmental entities. In addition,
management has not adopted and enforced internal control policies and procedures over its
accounting and financial management, budgetary practices and financial reporting, and has not
ensured that the Department is in compliance with applicable laws, regulations and grant
provisions.

Effect
The Department's ineffective internal control structure is conducive to many deficiencies as
described in the numerous findings contained in this report. The continued existence of these
deficiencies could result in significant cost disallowances by the federal awarding agencies or
ultimately; in the reduction or elimination of federal awards received by the Department.

Recommendation
The Department should implement an internal control structure to provide reasonable assurance
that:

•   Transactions are properly recorded and accounted for to permit the preparation of reliable
    financial statements and federal reports, maintain accountability over assets; and
    demonstrate compliance with laws, regulations; and other compliance requirements

•   Transactions are executed in compliance with laws, regulations, and the provisions of
    contracts or grant agreements that could have a direct and material effect on a federal
    program.

•   Funds, property, and other assets are safeguarded against loss from unauthorized use or
    disposition.

The Department should also reorganize its accounting practices and policies to conform with
GAAP. This will require a plan for the implementation of an accounting and financial
management system that permits the preparation of financial statements in accordance with
GAAP and of financial reports required by the different oversight entities. This plan should
cover the operations of the central, regional, and district offices, consider the forthcoming
changes and developments in the governmental accounting industry and their impact on the
financial and operational practices of the Department, and demonstrate accountability over the
federal programs and the related accounts receivable from the federal government.

In addition, the Department should be prepared to take the necessary steps for the successful
future adoption of accounting developments such as statement No. 34 of the Government
Accounting Standards Board.

Management's Response
The Department acknowledged our finding and agreed with our recommendation.
                                                                                  Attachment B
                                                                                   Page 5 of 20
                                Commonwealth of Puerto Rico
                                  Department of the Family

                   Schedule of Findings and Questioned Costs (continued)


Finding Number: 01-02

Accounting and Finance Department

Topic Sentence
The Department does not have an effective filing system.

Category
Internal Control

Compliance Requirement
All applicable compliance requirements as stated in OMB Circular A-133.

Criteria
OMB Circular A-102, part C, Section 20 (a)(2) of the Uniform Administrative Requirements for
Grants Agreements to state and local governments establishes that fiscal control and
accounting procedures of the state must be sufficient to permit the tracing of funds to a level of
expenditures adequate to establish that such funds have not been used in violation of the
restriction and prohibitions of applicable statutes.

Condition Found
During our audit, we noted that the procedures followed by personnel at the Filing Division did
not permit the timely retrieval of documents requested. In addition, we observed that various
payment documents processed by the different federal program accountants and the personnel
at the Payment Division are maintained and filed at the divisions without an organized system.
A substantial number of documents requested in connection with the testing of compliance with
laws, regulations, grant requirements and testing of internal controls could not be found.

Known Questioned Costs
None (Amounts identified are included in subsequent findings).

Underlying Cause
The Department has inadequate internal controls over record retention and the filing of
documents due to the lack of an overall control system that provides guidance to the different
agencies and divisions on the filing and retention requirements of documents.

Effect
The Department cannot support many of the disbursements made and therefore is unable to
prove compliance with applicable laws and regulations. The continued occurrence of this
situation could result in disallowed costs by the federal awarding agencies and the reduction or
elimination of federal grant awards.
                                                                              Attachment B
                                                                               Page 6 of 20
                              Commonwealth of Puerto Rico
                                Department of the Family

                  Schedule of Findings and Questioned Costs (continued)


Finding Number: 01-02 (continued)

Recommendation
The Department's management should ascertain that adequate source documents exist to
support amounts and items reported as expenditures. The Department should also establish a
record retention system to ensure that accounting records and documents are retained for the
time period required by applicable requirements and the provisions of laws, regulations,
contracts or grant agreements applicable to the program.

Management's Response
The Department acknowledged our finding and agreed with our recommendation.
                                                                                   Attachment B
                                                                                    Page 7 of 20
                                Commonwealth of Puerto Rico
                                  Department of the Family

                   Schedule of Findings and Questioned Costs (continued)


Finding Number: 01-03

Accounting and Finance Department

Topic Sentence
The Department did not comply with the established due date for the submission of the required
Single Audit Report.

Category
Internal Control/Compliance

Compliance Requirement
All applicable compliance requirements as stated in OMB Circular A-133.

Criteria
OMB Circular A-133, Subpart C, Section 320 of the Uniform Administrative Requirements for
Grants Agreements to state and local governments establishes that all audits shall be
completed and submitted to the cognizant agency within the earlier of 30 days after receipt of
the auditor's report or nine (9) months after the end of the audit period. However, for fiscal year
beginning on or before June 30, 2000, it was submitted 13 months after the end of the audit
period was permitted.

Condition Found
The Department does not have a program in place to comply with the deadlines established by
federal law for the submission of Single Audit reports. As a result, the Department did not
comply with the required submission date of the Single Audit for the fiscal year ended June 30,
2001. The due date for this report was no later than July 31, 2002. It should also be noted that
the Single Audit report for the fiscal year ended June 30, 2000 was submitted later than the
required due date established by federal regulations.

Known Questioned Costs
None

Underlying Cause
Due to the failure to ensure that adequate accounting records exist and that the timely and
accurate closing of books occurs, management did not comply with the requirements
established in OMB Circular A-133.

Effect
The Department could be exposed to a reduction or elimination of funding by the federal
awarding agencies.
                                                                                Attachment B
                                                                                 Page 8 of 20
                               Commonwealth of Puerto Rico
                                 Department of the Family

                  Schedule of Findings and Questioned Costs (continued)


Finding Number: 01-03 (continued)

Recommendation
The Department should establish aggressive monthly closing schedules and improve its
year-end closing procedures to allow for the timely performance of the Single Audit and enable
the Department to comply with the reporting requirements established by applicable regulations.

Management's Response
The Department acknowledged our finding and agreed with our recommendation.
                                                                                   Attachment B
                                                                                    Page 9 of 20
                                Commonwealth of Puerto Rico
                                  Department of the Family

                   Schedule of Findings and Questioned Costs (continued)


Finding Number: 01-05

State Agency                Catalog Number              Program Name

U.S. Department of
Agriculture                 CFDA #10.566                Nutrition Assistance Program for Puerto
Rico

Topic Sentence
The Department has deficiencies in the execution of property management procedures.

Category
Internal Control/Compliance

Compliance Requirement
Equipment Management

Criteria
As per 7 CFR Part 3015, Subpart R, section 3015.169, property records shall be accurately
maintained. The records shall include, for each item of equipment, a description of the
equipment including manufacturer's serial numbers, identification number, identification of the
grant under which the recipient acquired the equipment, the information needed to calculate the
federal share of the equipment, the acquisition date and unit acquisition cost, the location, use
and condition of the equipment and the date the information was reported and all pertinent
information on the ultimate transfer, replacement, or disposal of the equipment.

In addition, every two years, at a minimum, a physical inventory shall be conducted and the
results shall be reconciled with the property records to verify the existence, current utilization,
and continued need for the equipment. Any discrepancies between quantities determined by
the physical inspection and those shown in the accounting records shall be investigated to
determine the causes of the differences.

Condition Found
The Department does not perform a reconciliation of the physical inventory with the accounting
records. In addition, the following items are not specified in the Department's property
subsidiary ledger:

       •   The percentage of federal participation in the cost of the property
       •   The grant under which the recipient acquired the equipment
       •   All information on the ultimate transfer, replacement or disposal of the equipment

Total Nutritional Assistance Program for Puerto Rico's property and equipment additions for the
fiscal year ended June 30, 2001 amounted to $42,088.

Known Questioned Costs
None
                                                                              Attachment B
                                                                              Page 10 of 20
                               Commonwealth of Puerto Rico
                                 Department of the Family

                  Schedule of Findings and Questioned Costs (continued)


Finding Number: 01-05 (continued)

Underlying Cause
The Department does not have procedures to maintain accurate records for acquisitions and
dispositions for property acquired with federal funds. Management does not have knowledge of
federal requirements regarding property acquired with federal funds.

Effect
The Department is exposed to the risk of possible unauthorized use and disposition of
equipment due to the lack of internal controls and the lack of adequate property and equipment
records. The possible misappropriation of the equipment acquired with federal funds could
result in disallowed costs.

Recommendation
The Department must implement internal control procedures to ascertain that the requirements
of property acquired with federal funds are met. Management and employees should receive
trainings and written policies and procedures must be prepared.

Management's Response
The Department acknowledged our finding and agreed with our recommendation.
                                                                                    Attachment B
                                                                                    Page 11 of 20
                                 Commonwealth of Puerto Rico
                                   Department of the Family

                    Schedule of Findings and Questioned Costs (continued)


Finding. Num. 01-07

State Agency              Catalog Number           Program Name

U.S. Department of                                 The Emergency Food Assistance Program -
Agriculture               CFDA #10.568             TEFAP

Topic Sentence
The Department disbursed federal funds before a signed contract.

Category
Internal Control/Compliance

Compliance Requirement
Allowable Costs/Costs Principles

Criteria
A-102 Common Rule and OMB Circular A-110 require than non- Federal entities receiving
Federal awards establish and maintain internal control designed to reasonably ensure
compliance with Federal laws, regulations and program compliance requirements. In addition,
ultravires clause of the contract indicates that no service will be rendered until the signing of the
contract by both parts. This clause is ruled by the Contract Granting Regulation for the
Department of the Family.

Condition Found
We noted that the following contracts were signed after the beginning of a period of
effectiveness:

                       Program
                      Contribution         Effective                  Questioned
       Contract Number Amount                Date      Signed Date         Costs

       127-200120       $ 24,720.00 8/1/2000           9/29/2000     $ 24,720.00
       127-200165        78,478.93  10/1/2000          11/3/2000       78,478.93
       127-200117          800.00   7/18/2000           8/8/2000           62.50
       127-200154         7,977.00  10/1/2000          10/20/2000         664.75
           Total amount $111,975.93                                  $103,926.18

Known Questioned Costs
Questioned costs are included in Finding Number O1-08.

Underlying Cause
The Department's internal control for contract evaluation and authorization is inadequate.

Effect
The Department may have expended funds for unallowable activities, which could result in
disallowed costs by federal awarding agency.
                                                                               Attachment B
                                                                               Page 12 of 20
                               Commonwealth of Puerto Rico
                                 Department of the Family

                  Schedule of Findings and Questioned Costs (continued)


Finding Number: 01-07 (continued)

Recommendations
The Department should ascertain that adequate source documentation exist to support the
process for contracting goods and services. The Department should also establish a system to
ascertain that the contracts complied with requirements, regulations and the provisions, of law
and program requirements. No services should be paid without a signed contract.

Management's Response
The Department acknowledged our finding and agreed with our recommendation.
                                                                                  Attachment B
                                                                                  Page 13 of 20
                                Commonwealth of Puerto Rico
                                  Department of the Family

                   Schedule of Findings and Questioned Costs (continued)


Finding Number: 01-08

State Agency                  Catalog Number         Program Name

U.S. Department of
Agriculture                   CFDA #10.568           The Emergency Food Assistance (TEFAP)

Topic Sentence
The Department could not locate evidence to support disbursements.

Category
Compliance/Internal Control

Compliance Requirement
Allowable Activities

Criteria
OMB Circular A-102, Subpart C, Section 20(2), grantees and sub-grantees must maintain
records, which adequately identify the source and application of funds provided for financially
assisted activities. These records must contain information pertaining to the grant or sub-grant
awards and authorizations, unobligated balances, assets liabilities, outlays or expenditures and
income. Accounting records must be supported by such source documentation as cancelled
invoices, pre-audit invoices, paid bills, payrolls, time and attendance records, etc. Except as
otherwise provided, records must be retained for three years.

A-102 Common Rule and OMB Circular A-110, require that non-Federal entities receiving
Federal awards establish and maintain internal control designed to reasonably ensure
compliance with Federal laws, regulations and program compliance requirements.

Condition Found
During the testing of compliance with activities allowed for the program, we verified 18 contracts
granted for professional services, rent and goods and services totaling $781,724.33, or 42% of
the total award. The Department did not provide us adequate supporting evidence as follow:

                        Attribute                    1   2   3   4   5   6   7   8   9
Certification of Income Tax                                      X
Submitted returns certification                          X   X
Income Tax Withholding Waiver Document              X    X   X   X           X
CRIM Certification
Labor Dept. Certification                                                    X       X
Notarized Corporate Resolution                           X   X       X   X   X   X   X
Certificate of Incorporation oration                                 X   X   X   X
FSE Certification                                                        X   X   X   X
Employer's Certification                                                         X   X
Registered Signatures                                                X   X   X   X   X
End of Year Closing Report                               X   X       X   X   X   X
Public Responsibility Insurance                                                      X
                                                                                 Attachment B
                                                                                 Page 14 of 20
                                Commonwealth of Puerto Rico
                                  Department of the Family

                   Schedule of Findings and Questioned Costs (continued)


Finding Number: 01-08 (continued)

Condition Found (continued)

    Amount Paid as      Contract Number         Budget Amount
           of
     June 30, 2001

1         $-               127-980045                   $ 7,500.00
2       24,720             127-200120                   24,720.00
3      444,135            127-200165                   609,838.00
4         750              127-200117                       800.00
5        4,017             122-000149                     5,071.10
6          -              122-0100111                     7,500.00
7        5,011             122-000148                     5,010.71
8       10,751            122-0100157                   22,500.00
9         642             122-0100114                       720.00
       $490,026                                       $683,659.81

Known Questioned Costs
$490,026

Underlying Cause
The Department's internal control of contract evaluation and authorization is inadequate.

Effect
The Department may have expended funds for unallowable activities, which could result in
disallowed cost by federal awarding agency.

Recommendation
The Department should ascertain that adequate source documents exist to support the process
of contracting professional services, goods and services, etc. The Department should also
establish a record retention system to ascertain that documents are retained for the time period
required by applicable regulations and the provisions of law, contracts or grant agreements of
the program.

Management's Response
The Department acknowledged our finding and agreed with our recommendation.
                                                                                  Attachment B
                                                                                  Page 15 of 20
                                Commonwealth of Puerto Rico
                                  Department of the Family

                   Schedule of Findings and Questioned Costs (continued)


Finding Number: 01-14

State Agency                    Catalog Number       Program Name

U.S. Department of
Agriculture                     CFDA #10.568         The Emergency Food Assistance (TEFAP)

Topic Sentence
The Department filed Financial Status Reports that do not agree with the General Ledger.

Category
Compliance/Internal Control

Compliance Requirement
Reporting

Criteria
As per 7 CFR Section 251.10 (d)(1) standard for financial management systems related to
internal control, effective control and accountability must be maintained for all grants and
subgrants cash, real property and other assets, and accurate and complete disclosure of the
financial results of financially assisted activities must be made in accordance with the financial
reporting requirements of the grants and sub-grants.

Condition Found
We could not agree the amounts of disbursements in the General Ledger to the Federal
Financial. Status Report. The differences presented between those reports are as follows:

     Quarterly                General          Financial Status         Financial Status
      Ending                  Ledger                 Report            Report Over/(Under)
     9-30-2000                $       -          $ 395,932.61              $395,932.12
     12-31-200                  68,870                65,572.88               (3,297.12)
     3-31-2001                 586,889               575,806.03              (11,082.97)
     6-30-2001                        -              339,149.69             339,149.69
       Total                  $655,759            $1,376,461.21            $720,701.72

Known Questioned Costs
$720,701

Underlying Cause
There is inadequate control over the information used to prepare federal reports, no personnel
has been assigned to verify the accuracy and completeness of the data and reconcile the data
in the federal reports with the data in the accounting department.

Effect
Inaccurate reporting performance prevents the federal awarding agency from monitoring of the
program's financial activities, assessing the achievements of the program and evaluating the
grant award for the following year and could result in questioned costs.
                                                                              Attachment B
                                                                              Page 16 of 20
                               Commonwealth of Puerto Rico
                                 Department of the Family

                  Schedule of Findings and Questioned Costs (continued)


Finding Number: 01-14 (continued)

Recommendation
The Department should conduct reviews of the Financial Status Report prior to filing by
comparing amounts to supporting records to ascertain accurate reporting of award activities to
the awarding agency. Periodic reconciliations should be performed by the Federal Reports
Department and the Accounting Department. Differences should be analyzed and resolved.

Management's Response
The Department acknowledged our finding and agreed with our recommendation.
                                                                                Attachment B
                                                                                Page 17 of 20
                                Commonwealth of Puerto Rico
                                  Department of the Family

                   Schedule of Findings and Questioned Costs (continued)


Finding Number: 01-27

State Agency                  Catalog Number          Program Name

Federal Emergency
Management Agency             CFDA #83.543            Individual and Family Grants

Topic Sentence
The Department had delays in the time elapsed between the transfer of federal funds and the
disbursements of the funds.

Category
Compliance/Internal Control

Compliance Requirement
Cash Management

Criteria
31 CFR 205.6 establishes that the Pre-issuance funding is a method of transferring Federal
funds to the State prior to the date the State issues checks or initiates payments. When this
funding technique is applied, a state will incur an interest liability to the Federal Government
from the day the Federal funds are credited to a state account to the day the State pays out the
funds for programs purposes. A State shall request funds not more than three days prior to the
day on which it makes a disbursement, and a Federal agency shall deposit funds in a State
account the next business day after receiving a request for funds.

Condition Found
In testing compliance with cash management, we reviewed the report of disbursements to
beneficiaries of the program and the procedures implemented to minimize the time elapsed
between the transfer of Federal Funds and the pay out of funds for program purposes. During
our testing, we noted the following:

   ♦   Each request for funding was made while the fund account in the Treasury Department
       still had a remaining balance. The use of the funds requested begins at least a week
       after the request for funds. In some instances the time elapsed for using the requested
       funds was more than two weeks.

   ♦   The Request for Funds for Federal Award 1372 was made through Smartlink and no hard
       copies were available.

   ♦   The State has made excess draw down in the amount of $1,126,275 that needed to be
       returned to FEMA within 30 days, from December 20, 2001. Nonetheless, the balance of
       the account 222-1270000-FEMA1372DRPR-081-2001-E000 at January 24, 2002 is
       $377,504 for a difference of $749,071. There's no evidence of the use of the difference
       of the remaining balance as of January 24, 2002.

Known Questioned Costs
$1,126,275
                                                                                Attachment B
                                                                                Page 18 of 20
                               Commonwealth of Puerto Rico
                                 Department of the Family

                   Schedule of Findings and Questioned Costs (continued)


Finding Number: 01-27 (continued)

Underlying Cause
The Department requested funds more than three days prior to the day on which it makes a
disbursement and also request funds for unallowable activities not related to the IFG program.

Effect
The Department may incur in an interest liability to the Federal Government from the day the
Federal funds are credited to a state account to the day the State pays out the funds for
programs purposes. Excess funds must be returned immediately.

Recommendation
The Department should ascertain that adequate source documents exist to support the cash
management of federal funds. Procedures should be established to ascertain that the time
elapsed between the receipt and use of funds is minimal. The Department should also establish
a record retention system to ascertain the compliance with the time period required by
applicable regulations and the provisions of laws, contracts or grant agreements of the program.
The state must conduct periodic monitoring to avoid these situations.

Management's Response

The Department acknowledged our finding and agreed with our recommendation. The amounts
questioned were subsequently returned to the federal government as follows:

   Amount Returned             Check Number              Check Date

      $1,000,000.00               00743396              March 1, 2002
         164,254.75               00763974              April 9, 2002
      $1,164,254.75
                                                                                    Attachment B
                                                                                    Page 19 of 20
                                 Commonwealth of Puerto Rico
                                   Department of the Family

                    Schedule of Findings and Questioned Costs (continued)


Finding Number: 01-91

State Agency                       Catalog Number           Program Name

U.S. Department of Health
and Human Services                 CFDA #93.600             Head Start Program

Topic Sentence
The Department does not have a cost allocation approved.

Category
Compliance

Compliance requirement
Allowable Costs/Costs Principles

Criteria
Subpart C of the Code of Federal Regulations Number 45 CFR 74.27 states that grantees
should follow costs principles under the requirements of OMB Circular A-133. This Circular
requires formal plan of allocation of costs to support the distribution of any joint costs related to
the grant program. The DHHS is responsible for the negotiation and approval of the cost
allocation plan prepared by state agencies.

Condition Found
The Department does not have an approved Cost Allocation Plan from the Federal Cognizant
Agency for the Program year 2000-2001 to cover indirect costs for the amount of $1,485,903
and was not included in the Financial Assistance Award approved. The DHHS has requested
this Plan updated on prior periods. The Department presented, subsequent to the date of the
accompanying financial statements, a Plan for the federal agency's consideration.

In addition, the Department paid the amount of $685,163 to the Department of the Family to
cover indirect costs. However, we reviewed the approved Head Start Program's proposal for
program year 2000-2001 and this activity of indirect cost was not included in the Proposal.
According to the Indirect Cost Agreement dated May 17, 2001, it is established that "if any
federal contract, grant or other agreement is reimbursement indirect cost by a means other than
the approved rate(s) in this agreement, the organization should (1) credit such costs to the
affected programs, and (2) apply the approved rate(s) to the appropriate base to identify the
proper amount of indirect costs allocable to these program." We did not find evidence that the
Department followed this federal requirement.

Known Questioned Costs
$2,171,066

Underlying Cause
The Department failed to submit and have an approved Cost Allocation Plan for the current
Program Year, as required by Subpart C of the Code of Federal Regulations Number 45 CFR
74.27 and follow the federal requirement of the agreement.
                                                                                Attachment B
                                                                                Page 20 of 20
                               Commonwealth of Puerto Rico
                                 Department of the Family

                  Schedule of Findings and Questioned Costs (continued)


Finding Number: 01-91 (continued)

Effect
The Department's Cost Allocation Plan was not approved for the Program year 00-01 and
charges for indirect costs to the Program are not in compliance with the requirement of the
DHHS and agreement dated May 17, 2001.

Recommendation
We recommend the Department to obtain as soon as possible the approval of its Cost Allocation
Plan, to be in compliance with Federal Regulations and follow the federal requirement of the
agreement.

Management's Response
The Department agrees with this finding. A Corrective Action Plan will be prepared.
                 Overview of the Office of the Inspector General


                                       Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of
the Social Security Administration’s (SSA) programs and makes recommendations to
ensure that program objectives are achieved effectively and efficiently. Financial audits,
required by the Chief Financial Officers' Act of 1990, assess whether SSA’s financial
statements fairly present the Agency’s financial position, results of operations and cash
flow. Performance audits review the economy, efficiency and effectiveness of SSA’s
programs. OA also conducts short-term management and program evaluations focused
on issues of concern to SSA, Congress and the general public. Evaluations often focus
on identifying and recommending ways to prevent and minimize program fraud and
inefficiency, rather than detecting problems after they occur.

                              Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General
(OIG) by providing information resource management; systems security; and the
coordination of budget, procurement, telecommunications, facilities and equipment, and
human resources. In addition, this office is the focal point for the OIG’s strategic
planning function and the development and implementation of performance measures
required by the Government Performance and Results Act. OEO is also responsible for
performing internal reviews to ensure that OIG offices nationwide hold themselves to
the same rigorous standards that we expect from SSA, as well as conducting
investigations of OIG employees, when necessary. Finally, OEO administers OIG’s
public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and
current activities and their results to the Commissioner and Congress.


                                Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related
to fraud, waste, abuse, and mismanagement of SSA programs and operations. This
includes wrongdoing by applicants, beneficiaries, contractors, physicians, interpreters,
representative payees, third parties, and by SSA employees in the performance of their
duties. OI also conducts joint investigations with other Federal, State, and local law
enforcement agencies.

                           Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the
Inspector General on various matters, including: 1) statutes, regulations, legislation,
and policy directives governing the administration of SSA’s programs; 2) investigative
procedures and techniques; and 3) legal implications and conclusions to be drawn from
audit and investigative material produced by the OIG. The Counsel’s office also
administers the civil monetary penalty program.
